                                                                     Issue Date
                                                                              November 27, 2007
                                                                     Audit Report Number
                                                                                  2008-DE-1001




TO:         Ann Roman, Director, Denver Office of Public Housing, 8APH

            //signed//
FROM:       Ronald J. Hosking, Regional Inspector General for Audit, 8AGA


SUBJECT: The Housing Authority of the City of Colorado Springs, Colorado, Improperly
           Managed Contracts and Improperly Maintained Its Section 8 Waiting List.


                                     HIGHLIGHTS

 What We Audited and Why

             We audited the Housing Authority of the City of Colorado Springs (Authority) in
             response to an anonymous complaint alleging that it improperly awarded all
             contracts for rehabilitation services to the same bidder, did not properly maintain its
             waiting list, and inappropriately awarded new Section 8 housing choice vouchers.

             Our audit objectives were to determine whether the Authority followed federal
             procurement requirements and its own procurement policies in awarding two
             capital fund rehabilitation contracts, properly administered all work done by its
             contractor, and followed federal occupancy requirements and its own
             administrative plan in maintaining its Section 8 waiting list and selecting eligible
             applicants from its waiting list.

 What We Found

             The Authority did not follow applicable requirements while awarding and
             administering two capital fund rehabilitation contracts. It also violated applicable
             requirements while maintaining its Section 8 waiting list and selecting participants
           from the waiting list. Specifically, the Authority had no assurance that it received
           the best price when awarding two contracts that eventually paid out more than $2.2
           million. In addition, it did not administer the contracts according to requirements
           when it paid more than $570,000 to a contractor for services provided outside the
           scope of the statement of work on the contracts. Lastly, the Authority improperly
           maintained its waiting list and selected tenants without regard to the waiting list or
           appropriate support.

What We Recommend


           We recommend that the Denver Office of Public Housing require the Authority to
           provide training, and implement controls to ensure written procedures are
           followed. In addition, we recommend that the Denver Office of Public Housing
           perform a post-monitoring review to ensure the Authority took recommended
           actions.

           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06, REV-3.
           Please furnish us copies of any correspondence or directives issued because of the
           audit.

Auditee’s Response


           We provided the discussion draft of the audit report to the Authority on October
           18, 2007, and requested its comments by November 1, 2007, and extended the
           deadline until November 16, 2007. The Authority provided its written response
           on November 16, 2007, and generally agreed with the findings. The complete
           text of the auditee’s response, along with our evaluation of that response, can be
           found in appendix A of this report.




                                              2
                            TABLE OF CONTENTS

Background and Objectives                                                              4

Results of Audit
      Finding 1: The Authority Improperly Awarded Two Capital Fund Rehabilitation      5
                 Contracts
      Finding 2: The Authority Improperly Administered Two Capital Fund                8
                 Rehabilitation Contracts
      Finding 3: The Authority Improperly Maintained Its Section 8 Waiting List and   10
                 Improperly Selected Section 8 Housing Choice Voucher Recipients

Scope and Methodology                                                                 12

Internal Controls                                                                     13

Appendixes
   A. Auditee Comments and OIG’s Evaluation                                           14




                                            3
                     BACKGROUND AND OBJECTIVES

The Housing Authority of the City of Colorado Springs (Authority) was organized under the
laws of the State of Colorado as a political subdivision to provide low-rent housing for qualified
individuals in accordance with the rules and regulations prescribed by the U.S. Department of
Housing and Urban Development (HUD) and other federal agencies. To accomplish this
purpose, the Authority has entered into annual contributions contracts with HUD since June 1972
to be the administrator of low-income and Section 8 programs. The goal of the Authority is to
assist low-to-moderate-income families and elderly and disabled persons in obtaining affordable
housing that is safe, decent, and sanitary. The Authority is located at 831 South Nevada Avenue,
Colorado Springs, Colorado.

As of January 1, 2007, the Authority had administered more than 700 public housing units and
2,000 Section 8 units. According to its 2005 and 2006 audited financial statements, HUD
awarded the Authority more than $15 million for its Section 8 Housing Choice Voucher program
in both years and more than $3 million in 2006 and more than $2 million in 2005 for its capital
fund program.

The objectives of our audit were to determine whether the Authority followed federal
procurement requirements and its own procurement policies in awarding two capital fund
rehabilitation contracts, properly administered all work done by its contractor, and followed
federal occupancy requirements and its own administrative plan in maintaining its Section 8
waiting list and selecting eligible applicants for the program.




                                                4
                                  RESULTS OF AUDIT

Finding 1: The Authority Improperly Awarded Two Capital Fund
           Rehabilitation Contracts
The Authority violated federal procurement requirements while awarding two capital fund
rehabilitation contracts. This violation occurred because management did not adequately train
Authority personnel given the responsibility to oversee and award contracts, and Authority
personnel did not follow written procedures. As a result, the Authority had no assurance that it
received the best price for the services provided under the terms of the two contracts.



 The Authority Violated Federal
 Procurement Requirements



               During our audit period, January 1, 2005, through March 31, 2007, the Authority
               awarded two capital fund rehabilitation contracts to the same Contractor. It
               violated 24 CFR [Code of Federal Regulations] Part 85 when it awarded the two
               contracts. It did not perform an independent cost estimate before advertising the
               request for proposal for one of the contracts. It did perform an independent cost
               estimate for the other contract; however, it later modified the request for proposal
               and did not perform an independent cost estimate for the modifications. In
               addition, the Authority did not perform cost analyses after receiving proposals for
               either contract. Instead, it used previous bids by the winning contractor as a basis
               for determining the reasonableness of the current bids.

               The Authority also initiated and approved several change orders without
               performing cost analyses in connection with the contract modifications as
               required by 24 CFR Part 85. It executed 20 change orders on one contract that
               caused the original contract amount to rise from more than $657,000 to more than
               $1.2 million, representing a 92 percent cost increase. For the second contract, it
               executed eight change orders that caused the original contract amount to rise from
               more than $590,000 to more than $1 million, representing a 79 percent cost
               increase.

               Finally, in violation of requirements in HUD Handbook 7460.8, the Authority did
               not justify in writing why it was appropriate to award the contracts
               noncompetitively. Both contracts became non-competitive once they received only
               one bid from one source. According to 24 CFR Part 85, this means that competition
               is inadequate and procurement by non-competitive proposals requirements now
               apply.



                                                 5
Management Did Not
Adequately Train Authority
Personnel and Authority
Personnel Did Not Follow
Written Procedures


            Management did not adequately train Authority personnel given the responsibility
            to oversee and award contracts. In addition, personnel did not follow written
            Authority procedures.

            The executive director was responsible for the capital grant contracting function
            for 15 years before becoming executive director. When he became executive
            director more than two years ago, he delegated all contracting duties to the
            assistant executive director and maintenance supervisor. The assistant executive
            director and maintenance supervisor had attended one procurement training
            session approximately six years earlier but, otherwise, had limited prior
            contracting experience. As a result, they were not aware of the independent cost
            estimate, cost analysis, or written justification requirements for all contracts
            awarded noncompetitively.

            In addition, the Authority maintained a procurement policy which detailed
            required contracting procedures. However, Authority personnel did not follow
            the policy as required.

The Authority Had No
Assurance That It Received the
Best Price for the Services
Provided

            The Authority had no assurance that it received the best price for the services
            provided under the terms of the two contracts. The independent cost estimates
            give the Authority a fair market value basis for evaluating incoming proposals.
            The cost analyses ensure that the proposed price is reasonable for the services
            provided under the terms of the contract. In these cases, the Authority had no
            way of identifying the fair price concerning labor, indirect costs, and profits
            proposed. In addition, it did not have any assurance that the significant cost
            increases were reasonable based on the modified services provided.




                                             6
Recommendations



           We recommend that the Denver Office of Public Housing Director require that the
           Authority
           1A. Train its contracting staff in HUD procurement procedures.
           1B. Implement controls to ensure its contracting staff follow written
               procurement procedures.


           We recommend that the Denver Office of Public Housing Director
           1C. Perform a post monitoring review of the Authority’s procurement function
               to ensure that management took actions necessary to train its contracting
               staff and that the Authority complies with federal procurement
               requirements.




                                           7
Finding 2: The Authority Improperly Administered Two Capital Fund
           Rehabilitation Contracts

The Authority violated federal procurement requirements while administering two capital fund
rehabilitation contracts. Specifically, it paid more than $570,000 to a contractor for services
provided outside the scope of the statement of work on the contracts. This violation occurred
because the Authority’s contracting staff lacked the experience and knowledge of federal
procurement regulations needed to administer the contracts effectively and they did not follow
written procedures. As a result, the Authority had no assurance that the contract services
performed outside the scope of the statement of work for both contracts were reasonable or
eligible.



 The Authority Violated Federal
 Procurement Requirements


               During our audit period, January 1, 2005, through March 31, 2007, the Authority
               awarded two capital fund rehabilitation contracts to the same Contractor. It
               violated 24 CFR [Code of Federal Regulations] Part 85 when it administered the
               two contracts. It failed to amend its contracts for more than $570,000 in services
               provided by a contractor. It paid the contractor more than $184,000 in costs for
               rehabilitation services that were not included in its contract statement of work for
               the modernization of 12 scattered site units in a capital fund project. It also paid
               the contractor more than $186,000 in costs for rehabilitation services for five
               houses that it listed on several change orders but which were not included in the
               original contract. Finally, it paid the contractor more than $201,000 in costs for
               rehabilitation services that were not included in its contract statement of work for
               the Acacia Park Apartments’ kitchen remodeling capital fund project.

 Contracting Staff Lacked
 Experience and Knowledge and
 Did Not Follow Written
 Procedures

               The Authority’s contracting staff lacked the experience and knowledge of federal
               procurement regulations needed to administer the contracts effectively. In addition,
               contracting staff did not follow written Authority procedures.

               The contracting supervisor was also the maintenance supervisor and did not have
               sufficient experience to oversee large dollar contracts. In addition, both the
               contracting supervisor and the contracting officer had attended one procurement
               training session approximately six years earlier but, otherwise, had limited prior
               contracting experience. Further, the contracting supervisor did not understand the



                                                 8
             contract modification process or requirements. For example, he did not amend the
             original statements of work when the contractor performed additional rehabilitation
             services. In addition, the Authority’s contracting officer signed all contract
             modifications without verifying that the services were within the two contracts’
             statements of work.

             Finally, the Authority maintained a procurement policy which detailed required
             contracting procedures. However, contracting staff did not follow the policy as
             required.

The Authority Had No
Assurance That Contract
Services Were Reasonable or
Eligible


             The Authority had no assurance that the contract services performed outside the
             scope of the statement of work for both capital fund rehabilitation contracts were
             reasonable or eligible. For example, the Authority did not know whether the
             significant cost increases associated with the services performed outside the
             statement of work for both contracts were reasonable. In addition, it did not know
             whether the extra rehabilitation work performed outside the statement of work for
             both contracts was eligible. By amending the original statements of work and
             following federal procurement requirements in 24 CFR Part 85, the Authority can
             demonstrate that the work is necessary and justify the increases in total contract
             sums.

 Recommendations

             We recommend that the Denver Office of Public Housing Director require that the
             Authority
             2A. Train its contracting staff in HUD procurement procedures.
             2B. Implement controls to ensure its contracting staff follow written
                 procurement procedures.


             We recommend that the Denver Office of Public Housing Director
             2C. Perform a post monitoring review of the Authority’s procurement function
                 to ensure that management takes actions to train its contracting staff and
                 properly supervises the procurement function.




                                              9
Finding 3: The Authority Improperly Maintained Its Section 8 Waiting
           List and Improperly Selected Section 8 Housing Choice
           Voucher Recipients
The Authority violated federal occupancy requirements and its own policies and procedures
while maintaining its Section 8 waiting list and selecting Section 8 housing choice voucher
recipients. This violation occurred because management appointed eligibility department staff
personnel who lacked the necessary knowledge of federal occupancy requirements and Authority
policies and procedures. As a result, the Authority skipped over eligible families on the Section
8 waiting list to accommodate other families without proper justification. Therefore, the actions
of the Authority denied some families Section 8 housing for several months.



 The Authority Violated Federal
 Occupancy Requirements



              We selected and reviewed 71 applicants involved in the Section 8 intake process
              during the period October 1, 2006, through June 13, 2007. The Authority placed
              more than 500 families into units during this period. It improperly maintained its
              Section 8 waiting list and improperly selected Section 8 housing choice voucher
              recipients. Specifically,
                  • The Authority did not maintain a periodic snapshot of its waiting list.
                  • The Authority provided vouchers to families with limited proof of their
                      ever having applied for assistance, or ever having been on the waiting list
                      prior to June 2004.
                  • The Authority provided vouchers to families that did not respond to a
                      purge.
                  • The Authority provided vouchers to families for larger bedroom-size units
                      than its policy allowed.
                  • The Authority provided vouchers to families before performing proper
                      verification.
                  • Management overrode waiting list decisions.

              These actions violated 24 CFR [Code of Federal Regulations] Parts 85 and 982,
              the Authority’s own administrative plan, and HUD’s Housing Choice Voucher
              Program Guidebook.




                                               10
 Management Appointed Staff
 Who Lacked Experience and
 Knowledge

             Management appointed eligibility department staff personnel to oversee the
             maintenance of the Section 8 waiting list and to perform intake by selecting new
             Section 8 recipients from the waiting list. The staff personnel lacked the
             necessary knowledge of federal occupancy requirements and Authority policies
             and procedures to perform these duties. For example, one of the staff persons
             appointed had not been involved in the intake process for more than 15 years.
             Once appointed, the staff member received just over one-half day of informal
             training by other staff members. Further, the Authority never provided the staff
             person with formal policies and procedures related to the job function. Finally,
             the executive director ignored the Authority’s policies and procedures when he
             overrode staff’s waiting list decisions and granted exceptions to applicants.

The Authority Skipped Over
Eligible Families


             The Authority skipped over eligible families on the Section 8 waiting list to
             accommodate other families without proper justification. For example, it placed
             several applicants with no proof of having applied for Section 8 assistance until
             2006 before it placed June 2004 applicants. The actions of the Authority denied
             the earlier applicants Section 8 housing for several months or longer and allowed
             other families to receive housing several years early.

 Recommendations


             We recommend that the Denver Office of Public Housing Director require that the
             Authority
             3A. Train its eligibility staff in occupancy requirements, specifically in the areas
                 of maintaining the waiting list and selecting applicants in the proper order.
             3B. Implement controls to ensure its eligibility staff receive and follow written
                 Section 8 waiting list procedures.


             We recommend that the Denver Office of Public Housing Director
             3C. Perform a post monitoring review of the Authority’s occupancy function to
                 ensure that it follows federal occupancy requirements and its own
                 administrative plan, updates its administrative plan if necessary, and limit
                 the executive director’s ability power to override staff decisions.



                                              11
                         SCOPE AND METHODOLOGY

Our review period generally covered January 1, 2005, through March 31, 2007. We expanded
this period as necessary. We performed our on-site review at the Authority from April 23
through July 27, 2007. We performed additional work from our Denver office through
September 2007.

In April 2007, we received an anonymous complaint alleging that the Authority improperly
awarded all contracts for rehabilitation services to the same bidder, did not properly maintain its
waiting list, and inappropriately awarded new Section 8 housing choice vouchers. To achieve
our objectives, we reviewed HUD and Authority criteria and contracts, interviewed HUD and
Authority staff, and looked at HUD and Authority records.

To determine whether the Authority awarded all rehabilitation contracts to the same bidder, we
obtained a list of all contracts awarded for rehabilitation services. We conducted interviews with
several general contractors, subcontractors, and the bidder awarded the contracts. We also
reviewed all rehabilitation contracts (two) awarded during our audit period, which totaled more
than $1.2 million when awarded and more than $2.2 million by completion. We did not find
validity to this allegation. However, during this part of the review, we identified other problems
with the Authority’s award and administration of its capital fund rehabilitation contracts as
discussed in findings 1 and 2, respectively.

For our review of the Section 8 waiting list, we selected and reviewed 71 applicants involved in
the Section 8 intake process during the period October 1, 2006, through June 13, 2007. The
Authority placed more than 500 families into units during this period. We determined that the
Authority improperly maintained its Section 8 waiting list and improperly selected Section 8
housing choice voucher recipients.

We performed our review in accordance with generally accepted government auditing standards.




                                                12
                              INTERNAL CONTROLS


Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved:

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls


              We determined the following internal controls were relevant to our audit objectives:

              •       The Authority’s policies and procedures for procurement activities.
              •       The Authority’s policies and procedures for its Section 8 waiting list
                      maintenance and selection activities.

              We assessed the relevant controls identified above.

              A significant weakness exists if management controls do not provide reasonable
              assurance that the process for planning, organizing, directing, and controlling
              program operations will meet the organization’s objectives.

 Significant Weaknesses


              Based on our review, we believe the following items are significant weaknesses:

              •       Management lacked controls to ensure that it implemented its written
                      contract award procedures properly (finding 1).
              •       Management lacked controls to ensure that it administered contracts properly
                      (finding 2).
              •       Management lacked controls to ensure that it implemented written Section 8
                      waiting list procedures properly (finding 3).




                                                13
                        APPENDIX


Appendix A

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation     Auditee Comments




Comment 1




Comment 2




                           14
                           OIG Evaluation of Auditee Comments

The Authority’s response indicated general agreement with the findings and recommendations.

Comment 1            The Authority initiated both procurement actions through the competitive
                     proposal process from a number of sources. The process became non-
                     competitive once it received only one bid from one source for both
                     contracts. According to 24 CFR 85.36(d)(4), when one bid is received,
                     competition is inadequate and procurement by non-competitive proposals
                     requirements apply.

                     The Authority did not perform an independent cost estimate before
                     advertising the request for proposal for one of the contracts. It did
                     perform an independent cost estimate for the other contract; however, it
                     later modified the request for proposal and did not perform an independent
                     cost estimate for the modifications. In addition, the Authority did not
                     perform cost analyses after receiving proposals for either contract.
                     Instead, it used previous bids by the winning contractor as a basis for
                     determining the reasonableness of the current bids. These are violations of
                     24 CFR Part 85, and because of these violations, the Authority had no
                     assurance that it received the best price for the services provided under the
                     terms of the two contracts.

Comment 2            The OIG knew of the Authority’s internal review of its waiting list and
                     modification of its waiting list procedures. The Executive Director gave
                     OIG a complete and accurate picture of the history of the events leading up
                     to the Section 8 waiting list problems. In addition, the Executive Director
                     informed the OIG of the Authority’s efforts to improve and update the
                     quality of the waiting list information, and to improve internal controls and
                     processes. These claims were the primary reason OIG focused on the
                     current intake process of Section 8 applicants from its waiting list to test the
                     most current procedures in place to determine if the Authority made
                     improvements. OIG determined that the Authority continued to improperly
                     maintain its Section 8 waiting list and improperly select Section 8 housing
                     choice voucher recipients, and we recommended that the Authority train its
                     eligibility staff and implement controls to ensure its eligibility staff receive
                     and follow written Section 8 waiting list procedures. OIG believes that if the
                     Authority proceeds with its efforts to provide guidance and training for its
                     eligibility department staff on its internal policies and procedures and HUD
                     requirements, then the Authority will correct its waiting list problems.




                                               15
